No.

 

IN THE
Supreme Court of the United States

Petitioner,
v.
CALIFORNIA DEPARTMENT OF CORRECTIONS AND REHABILITATION,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA

Interim Federal Public Defender
MORIAH S. RADIN*

Deputy Federal Public Defender
321 East 2nd Street

Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Moriah_Radin@fd.org

Attorneys for Petitioner
*Counsel of Record

 
Petitioner, by his undersigned counsel, asks leave to file the attached
Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner is indigent and was represented by the Office of the Federal Public
Defender for the Central District of California in District Court and the
Ninth Circuit under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b).

This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: August 5, 2020 By:
MORIAH S. RADIN*
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record
